Office of the Inspector General
Skip to content
Social Security Online
Office of the Inspector General
www.socialsecurity.gov
Home  |  Questions?  |  Contact
Us
Search
About
Hotline
Offices
Resources
Español
OIG
Home
Audit
Report - A-02-96-02203
Office of
Audit
The Social Security Administration`s
Use of Customer Comment Cards - A-02-96-02203 - 4/29/97
TABLE OF CONTENTS
EXECUTIVE SUMMARY
INTRODUCTION
FINDINGS
Most
Field Offices and Teleservice Centers Use the Customer Comment
Card, But a Significant Number Do Not
Comment
Card Distribution Is Not Scientific in a Majority of Offices
Field
Office and Teleservice Center Managers Report Multiple Uses of
Customer Comment Card Data
One-Third
of Offices Who Use the Comment Card Do Not Find It Useful
Offices
That Find the Comment Card Useful Receive More Responses
Field
Offices and Teleservice Centers Use Other Methods to Monitor
Customer Service
RECOMMENDATIONS
APPENDICES
C: Managers` Suggested
Changes to the Comment Card
D: List of Contributors
Back to top
EXECUTIVE
SUMMARY
PURPOSE
To assess the effectiveness of the Social Security
Administration`s (SSA) current use of the customer comment card
used to assess the quality of service its customers receive from
field offices and teleservice centers.
BACKGROUND
SSA uses postcard-size questionnaires, known as comment
cards, to provide immediate feedback on the quality of service its
customers receive from field offices and teleservice centers. The
cards, along with an 11-page customer feedback questionnaire, were
developed by the Office of Operations in 1994 in response to field
office managers` requests for a vehicle to assess customer satisfaction
with their services. Office managers were encouraged to use these
instruments to assess their customers` needs, to enhance the
service that they deliver, and to provide appropriate feedback and
training for their staff. Managers were directed to use the cards "in
a manner that is best for each office and service area." The
customer comment card is one of many methods customers can currently
use to voice complaints.
FINDINGS
Most Field Offices and Teleservice Centers
Use the Customer Comment Card, But a Significant Number Do Not
Comment Card Distribution is Not Scientific
in a Majority of Offices
Field Office and Teleservice Center Managers
Report Multiple Uses of Customer Comment Card Data
One-Third of Offices Who Use the Comment Card
Do Not Find It Useful
Offices That Find the Comment Card Useful
Receive More Responses
Field Offices and Teleservice Centers Use
Other Methods to Monitor Customer Service
RECOMMENDATIONS
We recommend that the following steps be taken to improve
the effectiveness of the customer comment card: 1) the Office of
Operations should provide guidance on the methodologies needed for
obtaining a customer satisfaction rating; 2) efforts should
be made to increase response rates; 3) the comment card should
be revised to collect more useful information; and, 4) SSA should
use the comment card for agencywide performance monitoring.
AGENCY COMMENTS
SSA states that it has established the Customer Service
Executive Team to review and update SSA`s performance measures
and customer service standards. The Team has hired a consultant to
assess how SSA collects data on its performance measures and customer
service standards, and to offer recommendations for improvements.
SSA reports that the consultant`s final report, due in mid-April
1997, will include recommendations on the comment card. The Customer
Service Executive Team will use both the consultant`s report
and this report in preparing recommendations to the Commissioner
on improvements of SSA`s data collection system. The Office of
the Inspector General`s response to SSA`s comments is on
page 9.
Back to top
INTRODUCTION
PURPOSE
To assess the effectiveness of SSA`s current use
of the customer comment card used to assess the quality of service
its customers receive from field offices and teleservice centers.
BACKGROUND
SSA serves the public through 1,300 field offices
and 33 teleservice centers. Each year, field offices serve over
24 million visitors and answer an unknown number of telephone
calls. Further, SSA`s teleservice centers receive about 70 million
calls a year through the 800 number.
One method SSA uses to measure the quality of the service
it provides is the customer comment card. These postcard-size questionnaires
provide immediate feedback on the quality of service its customers
receive from field offices and teleservice centers. The cards, along
with an 11-page customer feedback questionnaire, were developed by
the Office of Operations in 1994 in response to field office managers` requests
for a vehicle to assess customer satisfaction with their services.
Office managers were encouraged to use these instruments to assess
their customers` needs, to enhance the service that they deliver,
and to provide appropriate feedback and training for their staff.
Managers were directed to use the cards in a manner that is best
for each office and service area. The customer comment card is one
of many methods customers can currently use to voice complaints.
There are two customer comment cards. One is for use
in field offices (form SSA-117-PC) and the other is for use in teleservice
centers (form SSA-116-PC). Both forms are in Appendix B.
Performance Monitoring Mandates: There are administrative
and legislative directives that directly affect how SSA monitors
its performance in serving the public--the National Performance Review
(NPR) and the Government Performance and Results Act (GPRA) of 1993,
Public Law 103-62. In 1993, as a result of NPR, President Clinton
issued Executive Order 12862--"Setting Customer Service Standards." Among
its requirements, the Executive Order calls for each Federal agency
to identify its customers, survey those customers, post service standards
and measure results against them, and benchmark customer service
performance against the best in the business.
In response to the Executive Order, SSA conducted a
nationwide series of customer focus groups. These groups provide
baseline information on customers` service expectations and satisfaction
with current services. Findings from the focus groups, along with
other customer surveys, led to the development of SSA`s Customer
Service Pledge. Published in 1994, the pledge states that
SSA will:
have knowledgeable employees who will treat customers
with courtesy, dignity, and respect;
provide an estimate of the time needed to complete
service requests and fully explain any delays;
clearly explain decisions so customers understand
why and how they were made;
have safe and pleasant offices, and accessible
services;
serve customers within 10 minutes of a scheduled
appointment time; and
provide a new or replacement Social Security card
from one of our offices within 5 working days.
At the same time, SSA made two additional pledges that
are important to customers but that could not yet be met. They are:
getting through to the 800 number within 5 minutes of the customer`s
first try, and getting a disability decision within 60 days
after applying.
GPRA seeks to systematically hold Federal agencies
accountable for achieving program results. This means setting performance
goals, measuring performance against those goals, and reporting publicly
on performance. It calls for agencies to have strategic plans by
September 30, 1997. In part, GPRA requires these plans to contain
a discussion of outcome-related goals and objectives, of how the
goals and objectives are to be achieved, and of program evaluations
used to establish and revise the goals and objectives.
GPRA also requires each agency to prepare an annual
performance plan, submitted to the Director of the Office of Management
and Budget, and to submit an annual report on program performance
to the President and Congress by Fiscal Year 1999. Among the requirements
of the annual performance plan are: objective, quantifiable, and
measurable performance goals; performance indicators using relevant
outputs, service levels, and outcomes; and a means for comparing,
verifying, and validating data.
Current Performance Monitoring Activities: SSA
has a variety of ways to collect customer feedback on its overall
performance. Some of the performance data can be obtained from management
information systems. Customer-based data on Agency performance comes
from surveys conducted by the Office of the Inspector General (OIG),
the Office of Program and Integrity Reviews, and the Office of Workforce
Analysis. Unfortunately, these surveys address some but not all of
the standards, and some but not all of SSA`s customer groups.
Therefore, SSA is not monitoring its performance on all of its published
customer service standards for each of its customer groups. Since
SSA is in the process of updating its strategic plan and reassessing
the service delivery pledge, this is an appropriate time to reevaluate
SSA`s processes for monitoring its performance.
Current Agency Initiatives: SSA has two ongoing
initiatives that will directly affect future use of the customer
comment card. The Customer Service Executive Team is responsible
for proposing a system that will review and update SSA`s performance
measures and customer service standards. This group is currently
hiring a consultant to provide an independent assessment of how SSA
collects data on its performance measures and service standards and
to offer recommendations for improvements. Another intercomponent
group is working on developing the Uniform Customer Complaint Management
System. This will be SSA`s first formal agencywide complaint
system.
Benchmarking Performance Monitoring Activities: In
the course of OIG`s efforts to monitor SSA`s service to the
public, we have evaluated the use of comment cards in the private
sector. In previous Department of Health and Human Services/Office
of Inspector General (HHS/OIG) inspections, "How The Private
Sector Monitors Customer Satisfaction: A Benchmarking Report" (OEI-02-94-00060)
and "Monitoring Social Security`s Customer Services: A Consultative
Report" (OEI-02-95-00780), we conducted literature reviews and
interviews with many of this Country`s top businesses. Our findings
show that comment cards are effectively and efficiently used by top
organizations to obtain customer feedback at the organizational level.
The key features are that they provide: 1) direct input from
the customer, 2) an inexpensive data collection method, and
3) timely information in that the card is completed immediately
after the service encounter.
METHODOLOGY
Formal questionnaires with both open- and closed-ended
questions were developed on field office and teleservice center use
of customer comment cards. They were designed to document the practice
with, and the manager`s opinion of, the comment cards. The questionnaires
were sent to managers of a sample of 66 field offices and 2 teleservice
centers. The 5 percent cluster sample was provided by SSA`s
Office of Research and Statistics and is representative of SSA`s
field offices and teleservice centers.
The questionnaires were sent to the sample of offices
on September 4, 1996 via CC:Mail, SSA`s electronic mail system.
Managers were requested to return the questionnaires within 2 weeks.
All of the offices in the sample returned a completed questionnaire.
The questionnaires were reviewed upon return and all open-ended responses
were coded. The information provided by the questionnaire was entered
into a dBASE III data base. The statistical computer program SAS
was used in analysis.
Our review was conducted from August to December 1996.
This inspection was conducted in accordance with the Quality Standards
for Inspections issued by the President`s Council on Integrity
and Efficiency.
Back to top
FINDINGS
Most
Field Offices and Teleservice Centers Use the Customer Comment
Card, But a Significant Number Do Not
Over 70 percent of field offices and teleservice
centers use the customer comment card to help assess the level of
service they are providing. The remaining offices (29 percent)
do not use it for three main reasons. First, some managers do not
feel a need to use the comment card since they use other methods
to collect data on their service. They meet with customers, talk
to customers over the phone, observe their office work flow, and
use their own form of a customer survey card. Second, managers report
that they stopped using the card due to a low response rate. Lastly,
managers are either waiting for employee feedback on the use of the
comment card, believe that they do not have enough staff to implement
its use, or did not know there was a comment card.
Urban, suburban, and rural offices were examined to
see if there are any differences in the extent of use of the comment
cards among these offices. While card use varies slightly among these
groups, similar proportions use customer comment cards. Eighty percent
of suburban offices, 71 percent of rural offices, and 67 percent
of urban offices use the customer comment card.
Comment
Card Distribution is Not Scientific in a Majority of Offices
Field offices and teleservice centers that use the
comment card use various methods to distribute them to their customers
and some offices use multiple methods. About two-thirds of the offices
that use the comment card only employ nonscientific distribution
methods. Therefore, the data resulting from these responses is not
necessarily representative of the customer population. For example,
most offices have the customer comment card displayed in the waiting
room. They either have comment cards in a display with other pamphlets
or in its own display. With this passive methodology, it is up to
the customer to notice the comment card and decide if they want to
take one.
There are other more active methods used to distribute
the comment card, but they are still nonscientific. Some offices
rely on the claims representatives (CR) and service representatives
(SR) to hand out customer comment cards. The CRs and SRs have a supply
of cards at their desks and distribute them to customers of their
choosing. In other offices, managers will occasionally hand out comment
cards to customers while informally talking to them while they wait
for service.
Offices that distribute the comment card in a scientific
manner either hand out the card to every customer or to a sample
of customers on a given day. About one-third of the offices (31 percent)
that use the comment card distribute it to all of their customers
on a given day. Managers report periodically, monitoring every customer
to spot check customer satisfaction or to assess a certain service,
particularly if it is new. Another 6 percent of the offices
that use the card report distributing it to a scientific random sample
of their customers instead of every customer. They report mailing
cards to customers randomly selected from interview logs. Although
their random selection process is scientific, some customers are
excluded from participation due to the nature of their business.
For example, a customer who visited an office just to pick up a form
or ask for information would not be listed on an interview log. Their
absence from a log would eliminate any chance of receiving a comment
card.
Back to top
Field
Office and Teleservice Center Managers Report Multiple Uses of
Customer Comment Card Data
Most offices report multiple uses of the comment card
data (see Table 1). Managers share the results with the entire staff.
The information is generally shared at staff meetings, but a few
offices used bulletin boards or written messages to disseminate it.
Managers report discussing information from an individual card with
a specific staff member if the customer reported a problem with that
specific employee. They also report using the comment cards for improving
service or contacting customers who were displeased with the service
they received.
Table 1
Uses of Information Provided By Cards
(Categories are not mutually exclusive)
Comment Card Uses
%
Share information with entire staff
65
To improve service
31
Discuss with specific employee individually
21
Contact customer to resolve problem
19
Put card in employee`s
file (if employee is named)
10
Not enough responses to use information
10
Other
8
Back to top
One-Third
of Offices Who Use the Comment Card Do Not Find It Useful
Low response rates are a problem. Among the
offices that do not find the customer comment card useful, over half
(59 percent) cite a low response rate as the reason. They believe
that the few cards that trickle into their offices are not a true
indication of the service they provide. One office manager said, "We
see around 200-250 visitors to our office most weeks. We are lucky
if we get one or two comment cards in a month." Another office
manager stated that, "there were not enough cards returned to
be useful" and a third manager explains that, "people don`t
take the time to complete it and mail it back to our office."
Offices that do not find the card useful do not distribute
many comment cards. The highest number of cards distributed by an
office that does not find them useful was 20. The highest number
of cards returned was eight.
Almost half (47 percent) of the offices that
do not find comment cards useful report that the information provided
by the cards is not helpful. Some feel that the cards just
provide complimentary comments. Such comments do not provide guidance
on how to improve service. One manager explains this point of view: "Although
the nice comments are good to know about, we did not learn anything
that would help us improve our service." Others report the
opposite effect. They feel that the card is used just by those
that have "axes to grind."
Other offices do not find the cards useful since they
do not provide information they would like to know. One office mentioned
that the card does not address access to their telephone service,
which comprises 75 percent of their total workload. Still another
office reports that there is not a specific place on the card for
a customer to name the staff member who helped them the day of their
visit or call. This information is necessary to address any problems
that the customers may raise.
Back to top
Offices
That Find the Comment Card Useful Receive More Responses
Two-thirds of the offices that use the comment card
feel it is useful. These offices distribute and receive more comment
cards than offices who do not find the cards useful. Over half of
the offices finding the cards useful distribute, on average, 60 or
more cards per month. Over half of these offices report having 18
or more cards returned to their office in an average month. One office
reports receiving 200 cards monthly out of 300 cards distributed.
This office is a high traffic urban office which hands a card to
every customer they have contact with on a given day. In comparison,
the highest number of cards returned to an office which did not find
the comment cards useful was eight.
Offices that use scientific distribution methods
are more likely to have a higher response rate. Two-thirds
of the offices that had 18 or more cards returned in a month periodically
give all customers a comment card. Another 8 percent of them
distribute comment cards to a scientific random sample of their
customers. Almost all of the offices (87 percent) with low
response rates relied on customers to voluntarily take cards from
a pamphlet rack or display in the waiting room.
Offices find the card useful for feedback and employee
morale. Many (65 percent) of the offices that find the
comment card useful believe it is a good source of feedback from
their customers. A quarter of these offices believe the card is
a good tool in boosting office morale. For these offices, the comments
from the cards are generally positive and allow managers to compliment
their staff.
Almost half (43 percent) of the offices find the
cards to be useful because they help to improve service. First, the
cards remind staff that they are there to serve the customers and
provide the best service they possibly can. Second, the cards identify
specific service methods that need improvement. One office, for example,
reports that the customer comment card helped to point out traffic
flow problems that delayed services.
Some offices use the customer comment card as a
complaint system. One in five offices that find the comment
card useful see it as a complaint system. These offices report
calling customers who provide their names on the card and report
dissatisfaction with the service they received. The offices are
then able to address the problems that caused the customers` dissatisfaction.
Back to top
Field
Offices and Teleservice Centers Use Other Methods to Monitor
Customer Service
All offices, whether they use the customer comment
card or not, use other methods to assess customer service. Many offices
(62 percent) report that they receive telephone calls and letters
from customers reporting their satisfaction or dissatisfaction. Half
of the managers report that they meet with customers after they received
service to determine if it was satisfactory. Managers also receive
feedback from other agencies or congressional offices (24 percent),
rely on other studies (19 percent), or personally observe their
staffs` performance (12 percent).
The use of multiple methods to monitor customer satisfaction
is consistent with the findings of the previous HHS/OIG study, "Monitoring
Social Security`s Customer Services: A Consultative Report" (OEI-02-94-00060).
Businesses and organizations recognized as the best in business at
providing or monitoring customer service recommend the use of multiple
methods to assess customer service. According to the report, these
organizations use telephone surveys, mail surveys, comment cards,
focus groups, undercover shoppers, management observation, and automated
devices to get a "true picture of customer satisfaction." They
also stress the vital need to identify and respond to dissatisfied
customers.
Back to top
RECOMMENDATIONS
Field office and teleservice center managers were directed
by the Office of Operations to use the customer comment card "in
a manner that is best for each office and service center." We
believe that this guideline is too general and has led to problems
with the current use of the customer comment card. First, the comment
card is rarely distributed in a scientific manner. This limits its
reliability as an accurate measure of customer service. Second, current
methods of distribution are related to low response rates. Low response
rates limit the comment card`s usefulness as an effective customer
complaint system or as a tool to improve service. Finally, the current
format of the customer comment card does not always provide managers
with helpful information.
We believe that there are a number of actions SSA can
take to improve the effectiveness of the customer comment card. Within
the context of the Agency`s current initiatives undertaken by
the Customer Service Executive Team and the Customer Complaint Management
System Team, we recommend that:
1. SSA field offices and teleservice centers should
use more scientific methods to distribute the customer comment
card--The Office of Operations should provide guidance to
field offices and teleservice centers on appropriate methodologies
for obtaining customer feedback. Unscientific distribution will
not provide an accurate rating on customer service. For example,
very satisfied or very dissatisfied customers may be more likely
to use the customer comment card if it is solely up to the customer
to take one. This would lead to an inaccurate service rating.
The Office of Research and Statistics has experience in this
area and can provide the Office of Operations with instructions
on methodologies.
2. Efforts should be made to increase response
rates--Low response rate is the primary reason why field
offices and teleservice centers do not find the comment card
useful. Also, the offices that find the card useful have more
cards returned than offices that do not find it useful. A higher
response rate can only help to provide comments that can lead
to improved service. Offices should be encouraged to use active
distribution and not rely on passive customer participation.
3. The comment card should be revised to collect
more useful information--The best in business believe that
identifying and addressing areas of dissatisfaction are vital
to improving service. The comment card should be changed to specifically
elicit improvements customers feel are necessary. While offices
appreciate receiving positive feedback, identifying potential
improvements and monitoring dissatisfaction can lead to better
service for all customers. Appendix C contains comments provided
by field office and teleservice center managers on potential
improvements for the customer comment card.
4. SSA should use the comment
card for Agency-level performance monitoring -- Comment cards
are an inexpensive and effective method of receiving customer
input. They reach
many customers that other studies do not. This is particularly
true for customers who only walk in for information or a minor
transaction. SSA currently has no way to monitor service to this
population. Comment cards can be used to "spot check" overall
client satisfaction or to monitor a specific process or customer
group.
Seventy-eight percent of the managers believe
that the customer comment card should not become a centralized
function, but should remain in their control. Centralized use would
create information that is too broad and not appropriate for their
specific environments. They believe that the card collects data
that is only useful for local offices which are responsible for
delivering customer service.
The customer comment card can be used for Agency-level
performance monitoring while also serving as a tool for local managers.
The Agency can use the card on specific days and allow local offices
to use it at all other times. The Office of Research and Statistics
and the Office of Workforce Analysis have experience in agencywide,
time sampling studies.
We spoke with staff in the Office of the Chief Policy
Officer and the Office of Strategic Management. They believe that
the customer comment card should continue to be used at the local
level. They believe it could also be used occasionally to collect
agencywide data, but not at the expense of local use. They confirm
that agencywide use of the customer comment card will probably
be reviewed by a consultant that is currently being hired to work
with the Customer Service Executive Team. We believe that such
a review of the agencywide use of the customer comment card would
be appropriate.
AGENCY COMMENTS
SSA states that it has established the Customer Service
Executive Team to review and update SSA`s performance measures
and customer service standards. The Team has hired a consultant to
assess how SSA collects data on its performance measures and customer
service standards, and to offer recommendations for improvements.
SSA reports that the consultant`s final report, due in mid-April
1997, will include recommendations on the comment card. The Customer
Service Executive Team will use both the consultant`s report
and this report in preparing recommendations to the Commissioner
on improvements of SSA`s data collection system.
SSA further states that OIG makes inaccurate references
to using customer comment card data to measure customer satisfaction
and performance in relationship to SSA`s Customer Service Pledge.
SSA explains that the card is intended for local office use, and
other surveys are designed to monitor the pledge. Also, SSA points
out that the report inaccurately states that the comment card is
being used to meet the Agency`s need to have a complaint system
under Executive Order 12862.
OIG RESPONSE
We understand, and clearly state in the report, that
the customer comment card was created for local offices to assess
levels of customer service in a manner that best fits the needs of
each office and service area. Our recommendations are geared toward
getting the most accurate and efficient information for local managers
and staffs to use in improving service. We believe that the current
methodologies used by some offices limit the usefulness of the comment
card. Scientific methodologies, increased response rates, and a revised
comment card would provide managers information that better reflects
the service needs and desires of their customers.
We believe that the comment card can be an inexpensive
and effective tool at both the local and national levels. We appreciate
that our recommendations will be used in conjunction with the consultant`s
recommendations in preparing recommendations on improvements to SSA`s
data collection system. We note that the previous HHS/OIG report, "Monitoring
Social Security`s Customer Services: A Consultative Report" (OEI-02-94-00060),
would also be helpful to the executive team in preparing recommendations
for the Commissioner. Finally, we realize that the customer comment
card is one of many methods customers can currently use to voice
complaints and that it is not the official customer complaint system
for SSA.
Back to top
APPENDICES
APPENDIX C
Managers` Suggested Changes to the Comment Card
All of the managers in our sample were asked what would
make the customer comment card more useful to them. Over one-fifth
of the managers believe that a modification to the comment card would
make it more effective. The managers` suggested changes are listed
below in their own words. Their comments have been grouped into four
general categories:
More Detailed Information Is Desired
The comment card should be less structured and more
personalized. Canned answers such as excellent, poor, etc. do not
give a true response for the feelings of the customer. Comparatively,
a narrative response is more meaningful.
Add the following questions on the card: 1. What
did you like best about the service we provided you today? 2. What
did you like the least about the service we provided you today?
More space for customers to elaborate, if they chose.
Also a place for the name of the employees customers talked with.
Ask the claimant to explain any ratings of fair or
poor.
Eliminate the ratings and ask questions such as, "Did
you feel that our service was courteous? If so, what did we do
that you liked? If you felt that we were not courteous to you,
what did we do to give you that feeling and what can we do to improve
in this area."
If the card would solicit information about attempts
to telephone our office. When these attempts were made and how
successful or unsuccessful they were. The Office of the Inspector
General must help us in this area, because to date the Social Security
Administration (SSA) has done nothing with assessing the quality
of local telephone service.
If it asks for the name of the employee; contact
if individual knows who helped him/her.
Add a block for the name of the claim representative/service
representative, or other district office employee, if known. This
can be useful for both good and critical feedback.
Under "File a claim" indicate what type
of claim was requested. Similarly, ask for more details about the
type of information requested and/or furnished.
Indicate if visit was for regular Social Security
benefits or Supplemental Security Income.
Ask if the person was asked by SSA to visit/decided
to visit on their own. This would give information on the necessity
of visit.
Have specific teleservice center and field office
versions.
We should have more room and the flexibility to better
tailor the cards to the particular needs of a given monthly study.
The form needs to be tailored to solicit information
so that a determination can be made (by us, not the caller) as
to whether the final product was done accurately (information provided
or systems input).
I would like to see something asking for the claimants` views
on how confidential their interview or how private they felt their
interview was conducted. A question on privacy may be appropriate.
The Waiting Time Questions Are Troublesome
It seems that our waiting time studies should be
sufficient to determine if our clients wait too long. I would eliminate
the question about the length of time waiting for service.
Improve the format of the waiting time question.
Give boxes for choices (0-5 minutes, 5-10 minutes, etc).
Hopefully, this would eliminate invalid responses.
The questions that involve time are very confusing
to the people completing the form. I am sure that the form was
designed to address how long a person had to wait in the office
before he was served. Those who had to wait 2 years while
a disability decision, recon, and hearing were decided think a
2-year wait is too long. We need to change this question also so
that these useless answers don`t confuse the statistics.
The question about specific time that a person waited
is good. We have found, however, that a person`s perception
of a long wait is dramatically affected by whether or not they
felt they were treated courteously! We are aware of a study involving
a doctor`s office where patients waited exactly 20 minutes
to see the doctor. When asked how long they had to wait those that
felt that the doctor had been short with them and unfriendly reported
that they must have waited at least 45 minutes. In situations
where the doctor spent a little more time in small talk with them
and treated them in a friendly and caring manner the patients perceived
the wait to be no more than about 10 minutes!
We have noticed that statistics often depend on the
office. In our office for example, nearly everyone gets waited
on within 15 minutes. However, only 84 percent of the
people thought this was good enough. In other offices, the statistics
show that a significant percentage of the people who wait
longer than 30 minutes is still 95 percent. It just depends
upon the expectations of the claimants in the service area.
Some Questions Need to Be Rephrased
Eliminate fair rating and give them just three choices
for rating service and courtesy.
I think the questions should be rephrased. They are
too open and often illicit an incorrect response. Example: We had
a card where the person rated the service as "fair." When
we contacted the customer to see what the problem was and how we
could improve the service, they said there was no problem, that
we had treated them in a "fair" manner. Actually, they
thought the service was excellent, but we received a low grade
based on the way the card is worded.
We might need to do what we did with the Disability
Insurance Benefits forms, and expand the card to more check choices
to more clearly define our service.
One problem involves the question which says, "Did
you get what you wanted?" If the claimant filed for disability
benefits, for example, and was denied, he definitely did not get
what he wanted. If we are looking at employee courtesy to customers,
it looks really negative when these people say, "Hell no I
didn`t get what I wanted." We should change the question
to something that more accurately evaluates whether we are courteous
to the customer.
The Comment Cards Need to Be More Visible to the
Customers
On outside of card, "Social Security Puts Customers
First"--indicate in large letters, "Please Take and Return
or Leave Here--Free Postage." Otherwise, we have to come up
with other signs to point out cards.
Provide dispensers and displays for cards that all
offices can use; something professional looking.
A P P E N D I X D
List of Contributors
MAJOR CONTRIBUTORS TO THIS REPORT
Office of the Inspector General
Scott Patterson, Director, Evaluations and Technical
Services
Jack Molnar, Team Leader
Tim Nee, Senior Evaluator-in-Charge
Art Treglia, Senior Auditor
Evan Buckingham, Senior Evaluator
Privacy Policy | Website
Policies & Other Important Information | Site
Map
Need Larger Text?
Last reviewed or modified